           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        FOLLOW-UP OF PENDING
       WORKERS’ COMPENSATION

      July 2010   A-08-09-19167




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      July 12, 2010                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up of Pending Workers’ Compensation (A-08-09-19167)


           OBJECTIVE
           Our objectives were to determine the status of corrective actions the Social Security
           Administration (SSA) had taken to address recommendations in our September 2005
           report, Follow-up of Pending Workers' Compensation: The Social Security
           Administration Can Prevent Millions in Title II Disability Overpayments
           (A-08-05-25132), 1 and update the volume of Title II disability cases with pending
           workers’ compensation (WC) claims.

           BACKGROUND
           All States require that employers provide WC insurance for employees in the event they
           suffer work-related injuries or occupational diseases.2 The Social Security Act requires
           that SSA offset disability benefits for individuals who receive Federal, State, or locally
           administered WC benefits in most States.3

           When an individual applies for Title II disability benefits, SSA field office personnel
           determine whether the applicant may also be receiving WC payments. 4 If SSA
           1
            This audit followed up on recommendations in our June 2003 report, Pending Workers' Compensation:
           The Social Security Administration Can Prevent Millions in Title II Disability Overpayments
           (A-08-02-12064).
           2
            The District of Columbia, American Samoa, Guam, the Northern Mariana Islands, Puerto Rico, and the
           Virgin Islands have similar provisions.
           3
             SSA administers the Old-Age, Survivors and Disability Insurance program under Title II of the Social
           Security Act. Section 223(a) of the Act (42 U.S.C. § 423(a)) provides monthly disability benefits to
           insured individuals meeting specific disability requirements. Section 224(a) (42 U.S.C. § 424(a)) requires
           that SSA offset disability benefits by any other disability benefits paid under any law or plan of the
           United States, a State, or political subdivision. However, 15 States are required by State law to offset WC
           benefits with Title II benefits.
           4
            SSA’s WC policies and procedures are contained in Program Operations Manual System, section
           DI 52100.
Page 2 - The Commissioner


approves disability benefits and the applicant’s WC claim is pending, SSA requires that
the beneficiary self-report receipt of subsequent WC payments to SSA. Additionally,
SSA policies and procedures require that personnel follow up on cases with pending
WC claims until they are resolved. To remind personnel to follow up on pending WC
claims, SSA’s Modernized Claims System generates a one-time diary alert to program
service center personnel 60 days after Title II benefit approval or on the expected WC
decision date, whichever occurs first. If the WC case is still pending when program
service center personnel attempt to resolve the first diary alert, personnel must
manually establish additional diaries to ensure cases are periodically monitored until
they are resolved. If program service center personnel do not establish additional
diaries, Title II disability cases with pending WC claims may never be resolved, and
SSA overpayments may occur.

Our September 2005 audit determined that SSA had not (1) followed through with steps
to reduce its backlog of Title II disability cases having pending WC claims;
(2) developed and implemented an automated process to ensure the Agency
systematically and routinely follows up on new pending WC cases; or (3) explored
systems enhancements that would detect situations in which WC is not applicable to
prevent personnel from retrieving and analyzing cases that no longer require
development. We concluded that, if SSA did not take steps to effectively manage its
pending WC workload, it would continue to build a significant backlog of pending WC
cases and pay millions of dollars in Title II disability overpayments. Accordingly, we
encouraged the Agency to implement the recommendations we made in our June 2003
report. SSA agreed to pursue these initiatives to the extent possible and stated the
Agency’s resources were limited and prioritized, thereby placing restraints on its ability
to undertake additional efforts.

To achieve our audit objectives, we interviewed SSA Headquarters and field personnel,
reviewed policies and procedures, and updated the volume of Title II disability cases
with pending WC claims for 2 or more years as of November 2009. The SSA entity
reviewed was the Office of the Deputy Commissioner for Operations. We conducted
our work at the Office of Audit in Birmingham, Alabama. We primarily relied on SSA’s
Master Beneficiary Record 5 to complete our review and determined the data used in the
report were sufficiently reliable given the audit objective and use of the data. We
conducted our work from October through December 2009 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.




5
 The Master Beneficiary Record is an electronic record of payment-related information for Title II
beneficiaries.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA had not taken corrective actions to address recommendations in our
September 2005 report. Specifically, SSA had not (1) followed through with steps to
reduce its backlog of Title II disability cases having pending WC claims; (2) developed
and implemented an automated process to ensure it systematically and routinely follows
up on new pending WC cases; or (3) explored systems enhancements that would detect
situations in which WC is not applicable to prevent personnel from retrieving and
analyzing cases that no longer require development.

Because SSA had not taken corrective actions to identify and prevent overpayments
resulting from unreported WC payments and manage its WC workload, the volume of
cases with WC claims pending for 2 or more years increased from 227,615 in
January 2005 to 268,825 in November 2009, an 18-percent increase over the past
4 years. In addition, we estimated SSA had overpaid Title II beneficiaries between
$44 and $58 million because of unreported WC payments since our June 2003 report.

STEPS TAKEN TO REDUCE BACKLOG OF PENDING WC CASES

SSA had not followed through with steps to reduce its backlog of Title II disability cases
having pending WC claims, as previously recommended. In response to our
September 2005 report, SSA agreed to pursue this initiative to the extent possible and
stated the Agency’s available resources placed restraints on its ability to undertake
additional efforts.

To identify unreported WC payments, SSA drafted legislation that would require that
State and local governments and other entities that administer WC plans provide the
Agency with information on the receipt of payments to an individual under such plans.
This legislation would give SSA the authority to regularly receive data needed to
properly adjudicate claims involving WC offset. SSA believes such legislation will
improve the integrity of the WC reporting process, avoid overpayments, and diminish its
reliance on the beneficiary to timely report this information. We support legislation that
would assist SSA in managing its pending WC workload and reduce overpayments.
However, as of February 2010, SSA had not submitted this legislative proposal for
Office of Management and Budget consideration.

To improve the processing of its overall WC workload, SSA established a national
"Workers' Compensation Resource Intranet Page," which provides links to State WC
sites, lists of WC insurance carriers' names and addresses for obtaining WC verification,
guides to SSA software for offset computations, and various training materials. In
addition, SSA revised its WC policy and processing instructions in its Program
Operations Manual System and established a quarterly WC Policy Forum conference
call for employees to discuss WC issues.

An official from the Office of the Deputy Commissioner for Operations told us the
Agency plans to pursue processing its pending WC workload to the extent possible.
Page 4 - The Commissioner


However, according to this official, SSA resources are limited, and the Agency must
take a holistic approach in applying those resources, considering many other priority
workloads.

While we recognize that reducing the pending WC backlog may require a significant
commitment of resources, we believe SSA has the responsibility to prevent, identify,
and recover overpayments to the best of its ability. Accordingly, we believe SSA should
develop a plan for addressing its backlog of Title II disability cases that have pending
WC issues and establish target goals for reducing improper payments resulting from
unreported WC payments.

AUTOMATED PROCESS TO ENSURE SSA SYSTEMATICALLY AND ROUTINELY
FOLLOWS UP ON NEW PENDING WC CASES

We determined that SSA had not developed an automated process to ensure it
systematically and routinely followed up on cases with pending WC issues, as
previously recommended. In response to our September 2005 report, SSA agreed to
pursue this initiative to the extent possible and stated the Agency’s available resources
were limited and prioritized, thereby placing restraints on its ability to undertake
additional efforts. SSA also responded that it submitted a proposal to the Information
Technology Advisory Board 6 to set up a computer matching agreement with the Centers
for Medicare and Medicaid Services to match their Common Working File 7 with
information in its Master Beneficiary Record on pending WC alert cases.

According to an official from the Office of the Deputy Commissioner for Operations, the
Advisory Board did not approve the proposed match, and Operations had not
resubmitted the proposal as of December 2009. We believe that recommended
systems enhancements would allow SSA to make timely adjustments to Title II benefit
payments and avoid overpayments. As such, we continue to encourage SSA to commit
the necessary resources to expeditiously develop and implement an automated process
to address this issue.

SYSTEMS ENHANCEMENTS TO PROVIDE ACCURATE WC STATUS

We determined that SSA had not implemented systems enhancements to provide
accurate WC status, as previously recommended. In response to our September 2005
report, SSA agreed to explore systems enhancements that would detect situations in
which WC is not applicable to prevent personnel from retrieving and analyzing cases
that no longer require development.



6
 This SSA inter-component Advisory Board evaluates systems projects and priorities and determines
which can be accomplished within the Agency’s limited resources.
7
 This File contains information about WC involvement after 2 years of disability entitlement and could be
used to help SSA clear its pending WC alert cases.
Page 5 - The Commissioner


An official from the Office of the Deputy Commissioner for Operations told us the
Agency had pursued agreements with private organizations that support insurance
companies processing WC claims to obtain accurate WC information. However, SSA
had not been successful in completing such agreements as of December 2009. While
we recognize systems enhancements may require significant resources, we believe
such changes would prevent personnel from retrieving and analyzing cases that no
longer require development. Accordingly, we continue to encourage SSA to commit the
necessary resources to identify systems enhancements that would detect situations in
which WC is not actually pending.

VOLUME OF PENDING WC CASES INCREASED

Because SSA had not taken sufficient actions to reduce its backlog, the volume of
cases with WC claims pending for 2 or more years increased from 227,615 in
January 2005 to 268,825 in November 2009, as illustrated in Figure 1. This represents
an 18-percent increase over the last 4 years and a 50-percent increase since 2001.

                     Figure 1: Title II Cases with WC Issues Pending for 2 or More Years

         300,000
                                                                               268,825
                                                        227,615
         250,000
                             179,284
         200,000

         150,000

         100,000

          50,000

               0

                                    July 2001   January 2005   November 2009

                   Source: SSA’s Master Beneficiary Record

To estimate the overpayments that have occurred since our 2003 audit, 8 we identified
100,501 new WC cases that had been pending for 2 or more years as of
November 2009. 9 In our June 2003 audit, 6 of our 10 overpayments (from a sample
of 100) had an unreported WC payment period of 8 years or less, the same period of
time as covered in this follow-up review. Therefore, we estimate approximately
6,030 (100,501 x .06) cases in our current 100,501 population have unreported WC
payments. We determined that the median and mean values of the six overpayments in
our 2003 audit were $7,297 and $9,751, respectively. Applying these values to our

8
 In our June 2003 report, we estimated that SSA overpaid 17,890 Title II disability beneficiaries almost
$121 million because of unreported WC payments.
9
    These are new pending WC cases that began after July 1999, the cutoff date for our 2003 audit.
Page 6 - The Commissioner


current population, we estimate SSA overpaid approximately 6,030 beneficiaries
between $44 million ($7,297 x 6,030) and $58 million ($9,751 x 6,030) because of
unreported WC payments. We believe this is a conservative estimate because it
excludes any continuing overpayments from cases estimated in our 2003 audit and
does not account for cost-of-living adjustments.

To help reduce improper payments in the Government, the President signed Executive
Order 13520, Reducing Improper Payments and Eliminating Waste in Federal
Programs, in November 2009. 10 This Order states that agencies “. . . must make every
effort to confirm that the right recipient is receiving the right payment for the right reason
at the right time.” The order also adopted a comprehensive set of policies, including
transparency and public scrutiny of significant payment errors throughout the
Government; a focus on identifying and eliminating the highest improper payments;
accountability for reducing improper payments among executive branch agencies and
officials; and coordinated Federal, State, and local government action in identifying and
eliminating improper payments. In addition, the order requires agencies to set target
goals for reducing improper payments.

CONCLUSION AND RECOMMENDATIONS
We believe SSA has a stewardship responsibility to ensure it properly pays
beneficiaries, thus avoiding overpayments. If SSA does not take steps to effectively
manage its pending WC workload, it will continue to build a significant backlog of
pending WC cases and pay millions of dollars in Title II disability overpayments.

Accordingly, we recommend that SSA:

1. Develop a plan for addressing its backlog of Title II disability cases having pending
   WC issues and establish target goals for reducing improper payments resulting from
   unreported WC payments.

2. Develop and implement an automated process to ensure the Agency systematically
   and routinely follows up on new pending WC cases.

3. Explore systems enhancements that would detect situations in which WC is not
   applicable to prevent personnel from retrieving and analyzing cases that no longer
   require development.

4. Work with the Office of Management and Budget to develop legislation that would
   require that State and local governments and other entities that administer WC plans
   provide the Agency with WC payment information.




10
     74 Federal Register 62201.
Page 7 - The Commissioner


AGENCY COMMENTS
SSA agreed in principle with our recommendations. The Agency’s comments are
included in Appendix A.




                                              Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Agency Comments

APPENDIX B – OIG Contacts and Staff Acknowledgments
                  Appendix A

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:      July 1, 2010                                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Follow-up of Pending Workers’
           Compensation" (A-08-09-19167)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. We agree in principle with your recommendations and stand
           by our original comments. We will pursue these initiatives as resources allow, as we must
           balance this workload against other agency priorities.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.
                                                                     Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director

   Jeff Pounds, Audit Manager

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-09-19167.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
